NO. 20- _______
‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗
IN THE

Supreme Court of the United States
-----------■----------STEVEN BAXTER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
-----------■----------On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
-----------■----------APPENDIX
Vol 1.
-----------■----------Joseph A. DiRuzzo, III
Counsel of Record
DIRUZZO & COMPANY
401 East Las Olas Blvd., Suite 1400
Ft. Lauderdale, Florida 33301
Office: (954) 615-1676
Fax: (954) 827-0340
Email: jd@diruzzolaw.com
‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗‗

APPENDIX A —
Judgment of the United States Court of Appeals
For the Third Circuit dated February 21, 2020

Case: 18-3613

Document: 77-1

Page: 1

Date Filed: 02/21/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 18-3613
_____________
UNITED STATES OF AMERICA,
Appellant
v.
STEVEN BAXTER
_____________
On Appeal from the District Court
of the Virgin Islands
District Court No. 3-17-cr-00024-001
District Judge: The Honorable Curtis V. Gomez
Argued December 11, 2019
Before: SMITH, Chief Judge, McKEE and SHWARTZ, Circuit Judges
_____________________
JUDGMENT
_____________________
This cause came on to be considered on the record from the District Court of
the Virgin Islands and was argued on December 11, 2019.
On consideration whereof, it is now hereby ADJUDGED and ORDERED that
the order of the District Court entered November 26, 2018, be and the same is hereby
VACATED. The matter is remanded to the District Court for further proceedings.
All of the above in accordance with the Opinion of this Court.

Appendix A

001a

Case: 18-3613

Document: 77-1

Page: 2

Date Filed: 02/21/2020

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: February 21, 2020

Appendix A

002a

APPENDIX B —
Opinion of the United States Court of Appeals
For the Third Circuit dated February 21, 2020

Case: 18-3613

Document: 76

Page: 1

Date Filed: 02/21/2020

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 18-3613
_____________
UNITED STATES OF AMERICA,
Appellant
v.
STEVEN BAXTER
_____________
On Appeal from the District Court
of the Virgin Islands
District Court No. 3-17-cr-00024-001
District Judge: The Honorable Curtis V. Gomez
_____________
Argued December 11, 2019
Before: SMITH, Chief Judge, McKEE and SHWARTZ,
Circuit Judges
(Filed: February 21, 2020)

Appendix B

003a

Case: 18-3613

Document: 76

Page: 2

Date Filed: 02/21/2020

John M. Pellettieri
[ARGUED]
United States Department of Justice
Appellate Section
Room 1264
950 Pennsylvania Avenue, N.W.
Washington, DC 20004
Everard E. Potter
Office of United States Attorney
5500 Veterans Drive
United States Courthouse, Suite 260
St. Thomas, VI 00802
Counsel for Appellant
Joseph A. DiRuzzo, III
Daniel Lader
DiRuzzo & Company
401 East Las Olas Boulevard
Suite 1400
Fort Lauderdale, FL 33301

[ARGUED]

Michael L. Sheesley
P.O. Box 307728
St. Thomas, VI 00803
Counsel for Appellee
2

Appendix B

004a

Case: 18-3613

Document: 76

Page: 3

Date Filed: 02/21/2020

_____________________
OPINION OF THE COURT
_____________________
SMITH, Chief Judge.
Steven Baxter allegedly mailed two packages from
South Carolina to St. Thomas, United States Virgin
Islands. Upon arrival in St. Thomas, U.S. Customs and
Border Protection (CBP) agents opened the packages and
discovered that they contained guns.
Baxter was
apprehended and charged with two counts of illegal
transport of a firearm. During his criminal proceeding, he
moved to suppress the guns as the fruit of unreasonable
searches which violated his Fourth Amendment rights.
The District Court of the Virgin Islands agreed and granted
the motion to suppress. The Government has appealed.
For the reasons that follow, we conclude that CBP
permissibly conducted the searches pursuant to the bordersearch exception to the Fourth Amendment. Because the
searches did not violate Baxter’s constitutional rights, we
will vacate the order granting the motion to suppress and
remand for further proceedings.

3

Appendix B

005a

Case: 18-3613

Document: 76

Page: 4

Date Filed: 02/21/2020

I.
A.1
On March 31, 2017, CBP K-9 Officer Joseph Lopez
was working at the Cyril E. King Airport in St. Thomas
with his trained and certified canine, Bo. Per his routine
daily duties, Lopez brought Bo into a cargo plane to
inspect mail that was incoming to the Virgin Islands (also,
“the VI”). Bo alerted to a package, signaling in a manner
indicating the presence of drugs. The package purportedly
had been sent by Jason Price, whose address was in South
Carolina, and had been mailed to a Mekelya Meade in St.
Thomas. It was labeled priority mail and weighed 3
pounds 2.2 ounces.
Officer Lopez reported the package to CBP Officer
Richard Kouns, who removed it from the plane. Officer
Kouns opened the box and brought out a piece of clothing
that smelled strongly of marijuana, although no drugs were
found in the package. When Officer Kouns returned the
item to the box, a magazine and round of ammunition fell
to the floor. The officers inspected the package more
thoroughly and discovered the unassembled parts of a gun.
A few days later, on April 3, 2017, a postal inspector
contacted CBP regarding another package which bore the
1

The factual background is derived from the testimony
presented during the June 4, 2018 suppression hearing.
4

Appendix B

006a

Case: 18-3613

Document: 76

Page: 5

Date Filed: 02/21/2020

same names and addresses as the March 31 package.2
Officers Lopez and Kouns responded to the call and
procured the package. Because of the addresses and the
weight of the package,3 Officer Kouns suspected it might
contain another gun and decided to x-ray it. The x-ray
revealed items that appeared to be a gun and ammunition.
Officer Kouns then opened the package and discovered
what were indeed a gun and ammunition.
The CBP officers contacted Homeland Security.
Homeland Security Special Agent Alicia Blyden arranged
a controlled delivery of the two packages. Authorities
ultimately apprehended Steven Baxter as the alleged
sender of the packages, and a grand jury charged him with
two counts of illegal transport of a firearm under 18 U.S.C.
§ 922(a)(5).
B.
Baxter moved to suppress the guns, claiming that
CBP’s warrantless searches of the two packages violated

2

Two packages bearing these names were intercepted on
April 3, 2017, but for present purposes, only one of the
two (the package containing a gun) is relevant.
3
While the record does not contain information specifying
its precise weight, the second package weighed more than
13 ounces.
5

Appendix B

007a

Case: 18-3613

Document: 76

Page: 6

Date Filed: 02/21/2020

his Fourth Amendment rights.4 After a hearing, the
District Court initially denied suppression with respect to
the March 31, 2017 search and ordered additional briefing
as to the April 3, 2017 search. Subsequently, on
November 26, 2018, the District Court vacated its earlier
partial denial and issued a detailed forty-two page opinion
granting the suppression motion in its entirety. United
States v. Baxter, No. 2017-24, 2018 WL 6173880 (D.V.I.
Nov. 26, 2018).
In its opinion, the District Court observed that the
packages sent from South Carolina to St. Thomas “never
left United States territory.” Id. at *8. The District Court
4

Before the District Court, the Government argued that
Baxter lacked standing to challenge the searches because
he lacked an expectation of privacy. Under its theory,
because the packages were sent under the name Jason
Price, only Price would have a legitimate expectation of
privacy in the packages. The District Court rejected the
Government’s claim. On appeal, the Government has not
pursued the standing issue. The standing inquiry for
challenging a search under the Fourth Amendment is not
a jurisdictional matter and therefore can be waived. See
United States v. Stearn, 597 F.3d 540, 551 & n.11 (3d Cir.
2014). Because the Government has waived the issue on
appeal, we will not consider whether Baxter has standing
to challenge the searches. See United States v. Joseph, 730
F.3d 336, 341 (3d Cir. 2013).
6

Appendix B

008a

Case: 18-3613

Document: 76

Page: 7

Date Filed: 02/21/2020

posited that, under the Fourth Amendment, the packages
“remain protected from a warrantless search unless . . .
they are transferred to a foreign territory.”5 Id. at *7. The
District Court acknowledged that, while the Virgin Islands
is not a “foreign territory” or a “foreign country,” id. at
*7–*9, nonetheless “[a]rguably . . . , some type of
border—or an approximation of one—exists” between the
mainland United States and the VI for certain customs
purposes. Id. at *14. But it concluded that searches at that
customs border for purposes of enforcing customs laws are
less important “than the interest of the United States in
enforcing its own Constitution.”6 Id.

5

The District Court observed that an exception applies if
the warrantless search is conducted by a non-government
agent, but such an exception is irrelevant to Baxter’s case.
6
The United States’ interest in enforcing the Fourth
Amendment is not typically considered when courts
consider the balance of rights under the Fourth
Amendment. Rather, the familiar balancing test weighs
the Government’s interest in conducting a search versus
an individual’s interest in being free from a search. See
Terry v. Ohio, 392 U.S. 1, 21 (1968) (“[T]here is no ready
test for determining reasonableness [of a search] other
than by balancing the need to search (or seize) against the
invasion which the search (or seizure) entails.” (citation
omitted)).
7

Appendix B

009a

Case: 18-3613

Document: 76

Page: 8

Date Filed: 02/21/2020

Our Court’s decision in United States v. Hyde, 37
F.3d 116 (3d Cir. 1994), established the applicability of
the border-search exception to the Fourth Amendment at
the customs border between the mainland United States
and the Virgin Islands.7 Because the border-search
exception permits the Government to conduct warrantless
Following the Supreme Court’s lead, Hyde framed the
Government’s power to conduct warrantless border
searches as an “exception” to the Fourth Amendment’s
warrant requirement. See, e.g., 37 F.3d at 119–20 (citing
United States v. Montoya de Hernandez, 473 U.S. 531,
537 (1985), United States v. Ramsey, 431 U.S. 606, 620
(1977), and United States v. 12 200-Ft. Reels of Film, 413
U.S. 123, 125 (1973)). Our reading of those cases
suggests, however, that this is an imperfect locution: a
border search is not an “exception” carved out from the
Fourth Amendment’s application, but rather a border
search is a circumstance in which the Fourth Amendment
was never intended to apply. See Hyde, 37 F.3d at 119
(“The inapplicability of the Fourth Amendment to border
searches was, to the [Ramsey] Court, evident: ‘That
searches made at the border, pursuant to the long-standing
right of the sovereign to protect itself by stopping and
examining persons and property crossing into this country,
are reasonable simply by virtue of the fact that they occur
at the border. . . .’” (quoting 431 U.S. at 616)).
Nonetheless, for consistency’s sake, we employ the
“exception” terminology here.
8
7

Appendix B

010a

Case: 18-3613

Document: 76

Page: 9

Date Filed: 02/21/2020

searches at the Virgin Islands customs border, the District
Court had to distinguish Hyde. It did so by relying on the
direction that the packages were traveling—i.e., from the
mainland to the Virgin Islands—not from the Virgin
Islands to the mainland, as was the case in Hyde.
According to the District Court, 19 U.S.C. § 14678
authorizes customs inspections of persons and items upon
entry into the United States, but “[t]he Court is aware of
no statutory authority authorizing similar inspections of
persons or items entering the United States Virgin Islands
Section 1467 provides: “Whenever a vessel from a
foreign port or place or from a port or place in any
Territory or possession of the United States arrives at a
port or place in the United States or the Virgin Islands,
whether directly or via another port or place in the United
States or the Virgin Islands, the appropriate customs
officer for such port or place of arrival may, under such
regulations as the Secretary of the Treasury may prescribe
and for the purpose of assuring compliance with any law,
regulation, or instruction which the Secretary of the
Treasury or the Customs Service is authorized to enforce,
cause inspection, examination, and search to be made of
the persons, baggage, and merchandise discharged or
unladen from such vessel, whether or not any or all such
persons, baggage, or merchandise has previously been
inspected, examined, or searched by officers of the
customs.”
9
8

Appendix B

011a

Case: 18-3613

Document: 76

Page: 10

Date Filed: 02/21/2020

from the United States mainland.” Baxter, 2018 WL
6173880, at *15. In addition, the District Court weighed
the interests at play and concluded that the balance is
different than that struck in Hyde. The District Court
weighed the Government’s interest in conducting the
searches for customs enforcement purposes against
individuals’ personal privacy interest in mailed packages
and determined “that the government’s interest in
conducting the type of search at issue here is less
compelling than the government’s interest in conducting
the searches at issue in Hyde. In addition, the intrusion on
privacy here is more significant than the intrusion
presented in Hyde.” Id. at *14 n.7. Thus, it concluded
that, when traveling into the Virgin Islands, the personal
interest prevails, and “the warrantless searches of the
sealed mail packages in this matter were not reasonable.”
Id.
The District Court reiterated, “[i]t is axiomatic that
those things that originate in, and stay within, the territory
of the United States remain free from border searches.” Id.
at *15. Accordingly, the District Court granted Baxter’s
motion to suppress the firearms.

10

Appendix B

012a

Case: 18-3613

Document: 76

Page: 11

Date Filed: 02/21/2020

II.
A.
The Government timely appealed. We have
jurisdiction over the Government’s appeal of the order
suppressing evidence pursuant to 18 U.S.C. § 3731. We
review the District Court’s legal conclusions de novo. See
Hyde, 37 F.3d at 118.
B.
Because we disagree with the District Court’s
conclusion that Hyde is inapposite, we begin by turning
our attention to that case. In Hyde, three individuals were
attempting to board a flight from St. Thomas to Miami,
Florida. After the individuals were stopped by Customs,
inspectors conducted pat-downs and discovered cocaine
taped to their bodies under their clothes. The defendants
moved to suppress the cocaine as the fruit of
unconstitutional searches. The District Court granted the
suppression motions. On appeal, the Government argued
that the warrantless searches were constitutional under the
border-search exception to the Fourth Amendment. We
agreed, concluding that an individual “may be subjected
to a routine customs search prior to departure in the

11

Appendix B

013a

Case: 18-3613

Document: 76

Page: 12

Date Filed: 02/21/2020

absence of any degree of suspicion that the individual is
engaged in wrongdoing.” 37 F.3d at 118.
We first acknowledged the general rule that
“warrantless searches are presumptively unreasonable.”
Id. (quoting Horton v. California, 496 U.S. 128, 133
(1990)). But we also pointed out that searches at a border
are, and always have been, a fundamentally different
category of search. Border searches are one of those
“limited situations [in which] the government’s interest in
conducting a search without a warrant outweighs the
individual’s privacy interest.” Id. As such, “searches at a
border, without probable cause and without a warrant, are
nonetheless ‘reasonable.’” Id. at 118. Indeed, we
reasoned that going back to our country’s founding, the
very first Congress—the same Congress that proposed the
Bill of Rights—specifically authorized warrantless border
searches for the purpose of collecting customs duties, and
“did not intend such searches to come within the
prohibitions of the Fourth Amendment.” Id. at 119.
We observed in Hyde that the Supreme Court has
recognized, explained, and reaffirmed the border-search
exception in several cases. See id. at 119–20 (citing
cases). Historically, the Government’s broad power to
conduct border searches has been necessary to prevent
smuggling and to prevent prohibited articles from entering
the country. See United States v. 12 200-Ft. Reels of Super
8MM Film, 413 U.S. 123, 125 (1973). Border-search
12

Appendix B

014a

Case: 18-3613

Document: 76

Page: 13

Date Filed: 02/21/2020

jurisprudence demonstrates that the Supreme Court has
“faithfully adhered to” the view that “border searches were
not subject to the warrant provisions of the Fourth
Amendment and were ‘reasonable’ within the meaning of
that Amendment.” United States v. Ramsey, 431 U.S. 606,
617 (1977). The border-search exception is grounded in
the sovereign’s right to control “who and what may enter
the country,” and for that reason, individuals have “limited
justifiable expectations of privacy” when presenting
themselves or their mailed parcels for entry at a border.9
Id. at 620, 623 n.17. Thus, the balance between an
individual’s lesser expectation of privacy at a border tilts
more favorably to the Government, which has a
heightened interest in regulating the collection of duties
and preventing the entry of contraband. See United States
v. Montoya de Hernandez, 473 U.S. 531, 537, 539–40
(1985).
We acknowledged in Hyde that the Supreme Court
has applied the border-search exception only when an
international boundary “or its functional equivalent”10 is at

9

In Ramsey, the Supreme Court concluded that the bordersearch exception applies to mailed letters in the same way
it applies to individuals. See Ramsey, 431 U.S. at 620.
10
The “functional equivalent” of an international border
may, for instance, be an airport, if the airport is the first
point of landing after a nonstop flight from abroad. Hyde,
13

Appendix B

015a

Case: 18-3613

Document: 76

Page: 14

Date Filed: 02/21/2020

play. Hyde, 37 F.3d at 120. The border between the
United States and the Virgin Islands is neither an
international boundary nor its functional equivalent, and
so the Supreme Court’s border-search exception cases did
not, by themselves, control our decision in Hyde. Id. at
122. Nonetheless, we decided that the rationale of the
Supreme Court’s international border-search cases applies
with equal force at the customs border that Congress
established between the mainland United States and the
Virgin Islands.11 Id.

37 F.3d at 120 n.2 (citing United States v. Caminos, 770
F.2d 361, 364 (3d Cir. 1985)).
11
The Virgin Islands is an “unincorporated American
territory.” See Vooys v. Bentley, 901 F.3d 172, 176 (3d
Cir. 2018) (en banc). That is, the VI has not been
“incorporated” into the United States on a path to
statehood. Id. at 176 n.10. Because of its unincorporated
territory status, Congress “has the authority to create a
border for customs purposes” between the VI and the rest
of the country. Hyde, 37 F.3d at 121. Consistent with that
authority, in the Tariff Act of 1930 (which remains in
effect today), Congress specified that the customs territory
of the United States excludes the Virgin Islands. Id.; see
19 U.S.C. § 1401(h) (“The term ‘United States’ includes
all Territories and possessions of the United States except
the Virgin Islands, American Samoa, Wake Island,
14

Appendix B

016a

Case: 18-3613

Document: 76

Page: 15

Date Filed: 02/21/2020

Like searches at an international border, routine
warrantless searches at the Virgin Islands customs border
would serve the United States’ interest in regulating its
customs system. Id. “Routine warrantless border searches
without probable cause would appear to be as essential to
the accomplishment of the objects of that customs border
as similar traditional searches have universally been
recognized to be to the objectives of traditional customs
systems at international borders.” Id. And, on “the other
side of the balance,” we observed that individuals at the
customs border, like at an international border, have a
lesser privacy expectation than they would within the
mainland United States. Id. Thus, the searches of the
Hyde defendants were reasonable and did not offend the
Fourth Amendment. Id.
We completed our analysis in Hyde with the
observation that the application of the border-search
exception at the customs border is consistent with the
protections of the Fourth Amendment, which apply within
the territory of the Virgin Islands. See Revised Organic
Act of 1954, 48 U.S.C. § 1561 (“The right to be secure
against unreasonable searches and seizures shall not be
violated. No warrant for arrest or search shall issue, but
upon probable cause, supported by oath or affirmation,
and particularly describing the place to be searched and
Midway Islands, Kingman Reef, Johnston Island, and the
island of Guam.”).
15

Appendix B

017a

Case: 18-3613

Document: 76

Page: 16

Date Filed: 02/21/2020

the persons or things to be seized.”). The existence of
Fourth Amendment protections within the Virgin Islands
does not undermine Congress’s ability to direct that a
customs border exists between the United States mainland
and the Virgin Islands and to protect that customs border
by conducting searches that are “essential to the effective
surveillance of the customs border and to the efficient
collection of the duties Congress had imposed.” Hyde, 37
F.3d at 123.
In sum, Hyde established that the border-search
exception to the Fourth Amendment permits routine
warrantless customs searches at the customs border
between the mainland United States and the Virgin
Islands.12 Hyde’s vitality is undiminished today.
12

Hyde held that warrantless searches at the customs
border are constitutionally permissible for the purpose of
surveillance of that border and collection of customs
duties. In Baxter’s case, however, it is immaterial whether
the CBP officers conducted the searches of Baxter’s
packages for the specific purposes that were discussed in
Hyde. Rather, as the Supreme Court held in Whren v.
United States, “[s]ubjective intentions play no role in
ordinary, probable-cause Fourth Amendment analysis.”
517 U.S. 806, 813 (1996). Moreover, although Hyde
concerned searches of individuals who were crossing the
customs border, Hyde’s rationale applies to mailed
packages as well. As the Supreme Court made clear in
16

Appendix B

018a

Case: 18-3613

Document: 76

Page: 17

Date Filed: 02/21/2020

C.
The routine customs searches of Baxter’s packages
were reasonable under Hyde unless, as the District Court
held, it makes a difference that the packages were leaving
the mainland United States rather than entering into it.13
Ramsey, as far as the applicability of the border-search
exception is concerned, there is no distinction between
persons and mailed items. See Ramsey, 431 U.S. at 620
(“The critical fact is that the envelopes cross the border
and enter this country, not that th[ey] are brought in by one
mode of transportation rather than another. It is their entry
into this country from without that makes a resulting
search ‘reasonable.’”).
13
Neither party has suggested that CBP’s searches of
Baxter’s packages qualify as anything other than routine
customs searches. We are aware that appellate courts have
held that a customs search that poses a serious invasion of
privacy and that would offend the average traveler—like a
body-cavity or strip search—is non-routine and thus
subject to heightened Fourth Amendment scrutiny. United
States v. Whitted, 541 F.3d 480, 485–86 (3d Cir. 2008)
(collecting cases); United States v. Johnson, 991 F.2d
1287, 1291 (7th Cir. 1993). The searches of the mailed
packages here fall far below that level of intrusion.
Accordingly, there is no need for us to consider what
constitutional requirements apply to a non-routine
customs search. See id. (“When a border search and
17

Appendix B

019a

Case: 18-3613

Document: 76

Page: 18

Date Filed: 02/21/2020

We conclude that this directional distinction should have
made no material difference to the District Court’s
analysis. The border-search exception applies regardless
of the direction of a border crossing.
In United States v. Ezeiruaku, 936 F.2d 136 (3d Cir.
1991), we considered the applicability of the bordersearch exception to searches of luggage traveling across
the international border out of the United States.
Specifically, customs inspectors at the Philadelphia
International Airport conducted a warrantless search of
Ezeiruaku’s suitcases, which were about to be loaded onto
an outgoing flight to Frankfurt, Germany.14
The
inspectors discovered $265,000 of unreported cash in one
suitcase. Ezeiruaku was charged with one count of
exporting unreported currency, and he moved to suppress
the cash as fruit of an unconstitutional search. The District
Court granted the motion.
We reversed, rejecting Ezeiruaku’s claim that the
border-search exception does not apply to articles leaving
the United States. Id. at 143. Consistent with every Court
of Appeals to have considered the issue, we concluded that
seizure becomes nonroutine, a customs official needs
reasonable suspicion to justify it.”).
14
Because it was the last point of departure before an
international flight, the Philadelphia International Airport
was the functional equivalent of an international border.
Ezeiruaku, 936 F.2d at 139.
18

Appendix B

020a

Case: 18-3613

Document: 76

Page: 19

Date Filed: 02/21/2020

“the traditional rationale for the border search exception
applies as well in the outgoing border search context.”15
Id. Thus, “[b]ecause the luggage . . . was at the functional
equivalent of the border, we [held] that no warrant,
reasonable suspicion or probable cause was needed to
justify the search.” Id.
Baxter is correct in observing that the Supreme
Court’s border-search cases primarily discuss the United
States’ interest in protecting its borders from illicit entry
of persons and goods into the United States. See, e.g.,
Ramsey, 431 U.S. at 620. This observation does not,
however, undermine the policy reasons we took into
account in Ezeiruaku that justify applying the bordersearch exception to any border crossing, regardless of the
direction. The United States has an interest in monitoring

15

At the time Ezeiruaku was decided, the Second, Fifth,
Eighth, Ninth, and Eleventh Circuit Courts of Appeals had
held that the border-search exception applies regardless of
the direction of the border crossing. See Ezeiruaku, 936
F.2d at 141–43. Since then, the First, Fourth, and Sixth
Circuit Courts of Appeals have joined the consensus. See
United States v. Boumelhem, 339 F.3d 414, 422 (6th Cir.
2003); United States v. Beras, 183 F.3d 22, 26 (1st Cir.
1999); United States v. Oriakhi, 57 F.3d 1290, 1297 (4th
Cir. 1995). We are aware of no Court of Appeals to have
reached a contrary conclusion.
19

Appendix B

021a

Case: 18-3613

Document: 76

Page: 20

Date Filed: 02/21/2020

persons and items that exit the country as well as those that
enter it. Ezeiruaku, 936 F.2d at 143.
Indeed, in both Hyde and Ezeiruaku, we drew
support for our conclusions based on public policy
concerns. We recognized in Hyde that the United States
has an interest in regulating commerce to enforce its
customs border with the Virgin Islands. See Hyde, 37 F.3d
at 122. This interest applies to goods and currency both
entering and leaving the mainland by crossing that
customs border. Moreover, we observed in Ezeiruaku that
the Government’s concern with the influx of illicit items
into the United States, such as drugs or similar contraband,
gives rise to a parallel interest in monitoring the outflow
of unreported cash that may be supporting the illegal
narcotics trade. 936 F.2d at 143. So, even though drug
trade was not at issue in Ezeiruaku’s case, “in an
environment that sees a massive importation of drugs
across our borders, . . . [s]trong dictates of public policy
reinforce the necessity of identifying, if not monitoring or
controlling, a cash outflow from the country as well as an
influx of narcotics into the country.” Id. The United
States has similar interests at the Virgin Islands customs
border.16

16

Indeed, the United States has an additional interest in
protecting its territories from the entry of illicit items like
drugs and guns.
20

Appendix B

022a

Case: 18-3613

Document: 76

Page: 21

Date Filed: 02/21/2020

Thus, under Ezeiruaku, the direction of travel does
not impact the applicability of the border-search
exception. The District Court erred in concluding
otherwise.
D.
Apart from his Fourth Amendment claim, Baxter
also contends that the regulations that authorized the CBP
officers’ searches of the mailed packages are
unconstitutional and invalid for failure to comply with the
Administrative Procedure Act.17 Baxter challenges: (1) 19
C.F.R. § 145.1, a regulation that defines certain classes of
mail; (2) 19 C.F.R. § 145.2, which authorizes, inter alia,
customs examination of “all mail arriving from outside the
U.S. Virgin Islands which is to be delivered within the
U.S. Virgin Islands”; and (3) United States Postal Service
Domestic Mail Manual § 101.6.1, which provides that
mail weighing over 13 ounces is “priority mail.” When
considered in tandem, these three regulations authorized
CBP officers to conduct the customs searches of the two
packages here.18
17

Baxter does not claim that the CBP officers violated any
applicable statute or regulation in conducting the searches.
18
Due to their weight, Baxter’s packages qualified as
“priority mail,” not “first class mail,” which is described
in USPS Domestic Mail Manual § 101.6.1, or as “sealed
letter class mail,” described in 19 C.F.R. § 145.1. By
21

Appendix B

023a

Case: 18-3613

Document: 76

Page: 22

Date Filed: 02/21/2020

Baxter argues that these provisions are invalid for
three reasons: the regulations (1) were issued in the
absence of proper notice and comment procedures, 5
U.S.C. § 553(b), (c); (2) are arbitrary and capricious, 5
U.S.C. § 706(2)(A); and (3) constitute a violation of the
nondelegation doctrine. The Government vigorously
disputes each of these claims.
Baxter concedes, as he must, that he never presented
these claims to the District Court, and so the District Court
was never given the opportunity to consider them. These
arguments could and should have been presented to the
District Court in the first instance. Because these issues
were asserted for the first time on appeal, we deem them
forfeited and will not consider them. See Gov’t of the V.I.
v. Rosa, 399 F.3d 283, 291 (3d Cir. 2005).
III.
Border searches “have a unique status in
constitutional law.” Ezeiruaku, 936 F.2d at 142 (quoting
United States v. Vega-Barvo, 729 F.2d 1341, 1344 (11th
Cir. 1984)). Indeed, the “longstanding recognition that
regulation, first class mail and sealed letter class mail are
subject to heightened requirements prior to customs
inspection. See 19 C.F.R. § 145.3(b), (e). The packages
at issue here did not qualify for the benefit of those
heightened protections and therefore were subject to
customs inspection under 19 C.F.R. § 145.2.
22

Appendix B

024a

Case: 18-3613

Document: 76

Page: 23

Date Filed: 02/21/2020

searches at our borders without probable cause and
without a warrant are nonetheless ‘reasonable’ has a
history as old as the Fourth Amendment itself.” Ramsey,
431 U.S. at 619.
The searches of the two packages here, which
occurred at the Virgin Islands customs border, were
routine customs searches that were reasonable under the
border-search exception to the Fourth Amendment. See
Hyde, 37 F.3d at 122; Ezeiruaku, 936 F.2d at 143. Because
the searches did not violate Baxter’s Fourth Amendment
rights, the District Court erred by suppressing the fruit of
those searches. We therefore will vacate the judgment and
remand the matter to the District Court.

23

Appendix B

025a

APPENDIX C —
Order of the United States Court of Appeals for the Third Circuit
Denial of Petitioner’s Petition for Rehearing En Banc
dated April 29, 2020

Case: 18-3613

Document: 85

Page: 1

Date Filed: 04/29/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 18-3613
_____________
UNITED STATES OF AMERICA,
Appellant
v.
STEVEN BAXTER
__________________________
(D.C. Crim. No. 3-17-cr-00024-001)
__________________________
SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by appellee in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

Appendix C

026a

Case: 18-3613

Document: 85

Page: 2

Date Filed: 04/29/2020

BY THE COURT,

s/D. Brooks Smith
Chief Circuit Judge
Dated: April 29, 2020
ARR/cc: DA; MLS; DL;JMP;EEP; JAD

Appendix C

027a

APPENDIX D —
Order and Opinion of the District Court of the Virgin Islands
granting the Petitioner’s Motion to Suppress
dated November 26, 2018

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 1 of 42

DISTRICT COURT OF THE VIRGIN ISLANDS
DIVISION OF ST. THOMAS AND ST. JOHN
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
STEVEN BAXTER, SHALICA BAXTER,
Defendants.

Criminal No. 2017-24

ATTORNEYS:
Gretchen Shappert, United States Attorney
Everard E. Potter, AUSA
United States Attorney’s Office
St. Thomas, U.S.V.I.
For the United States of America,
Michael L. Sheesley
St. Thomas, U.S.V.I.
For Steven Baxter.
ORDER
GÓMEZ, J.
Before the Court is the motion of Steven Baxter to suppress
physical evidence.
I.

FACTUAL AND PROCEDURAL HISTORY

On March 31, 2017, Customs and Border Protection (“CBP”)
officers were inspecting incoming mail at the Cyril E. King
Airport on St. Thomas. Bo--a K9 certified to alert to the odor
of marijuana, cocaine, heroin, methamphetamine, ecstasy, and
concealed humans--was smelling packages on an arriving flight at

Appendix D

028a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 2 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 2

the airport. Bo’s handler, Joseph Lopez (“Lopez”), was present.
Bo alerted to a package sent by Priority Mail.1 The package was
sent from Jason Price in South Carolina to Mekelya Meade in St.
Thomas. CBP officer Richard Kouns (“Kouns”)--without consent of
the sender or recipient, or the benefit of a court order--opened
the package and discovered a sweater that smelled of marijuana.
As Kouns was about to put the sweater back into the package, a
magazine and a round of ammunition fell out of the sweater.
Kouns then fully opened the sweater and discovered the parts for
a weapon. See Suppression Hr’g Tr., ECF No. 99 at 25 (June 4,
2018). Lopez later explained that CBP officials regularly open
packages sent from the mainland United States to the United
States Virgin Islands without warrants because the CBP has
“border search authority” under those circumstances. See id. at
35:9.2

Priority mail is one of several “classes of mail” that is maintained by the
postal service “for the transmission of letters sealed against inspection.”
39 U.S.C. § 404(c); see also Domestic Mail Manual § 113.2.2 (“Priority Mail
matter is closed against postal inspection.”).
2 Lopez also shared his view that Bo is never wrong. Rather, human
interpretation of what Bo indicates has been wrong.
Q. Has Bo ever been wrong in the alert that he had provided?
A. I don’t think Bo is wrong. I think I may do a wrong
interpretation.
Q. What does that mean?
A. With the alert that means that I can see that he changed
his behavior, like something calls his attention that I can
believe is an alert, and I do a wrong call, maybe, but I don’t
see that Bo has been wrong. He has been really reliable for
the agency finding narcotics.
1

Appendix D

029a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 3 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 3

After hearing evidence, the Court asked the United States
why no warrant was sought to search the packages:
THE COURT: . . . So, why didn’t the Government just
get a warrant with respect to the item? It’s in the
Government’s possession. They don’t have to release
it. . . . Why not get a warrant to just search it
and avoid all of this?
MS. VLASOVA: Your Honor, as law enforcement strategy
and tactic, there is no warrant requirement.
Id. at 116:4-14.
On April 3, 2017, CBP officers discovered another package
sent by Priority Mail from Jason Price in South Carolina to
Mekelya Meade in St. Thomas. The April 3, 2017, package was
similar in shape, size, and weight to the March 31, 2017,
package. CBP officers x-rayed the package and concluded that it
contained a firearm. Thereafter, the package was opened and
examined. Inside the package, Kouns discovered a firearm, a
magazine, and ammunition. Curiously, after opening the box,
Kouns then had Bo sniff the package. See id. at 89:12-90:7

Suppression Hr’g Tr., ECF No. 99 at 21:2-12. Alternatively, it seems that
whenever Bo incorrectly alerts, Lopez is willing to take the blame by
attributing the error to human interpretation.
Q. And you’ve said before that Bo has not been wrong but you
have been wrong before.
A. Yes, Sir.
Q. Okay. And so some alerts that Bo has given has led to nothing.
A. Some alerts that I believe that Bo given [sic] alert to went
to nothing.
Id. at 31:5-11. In either case, false positives which could trigger
warrantless searches could result.

Appendix D

030a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 4 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 4

On June 7, 2017, the Grand Jury returned an Indictment
charging Steven Baxter (“Baxter”) with one count of illegally
transporting two firearms in violation of 18 U.S.C. §§
922(a)(5), 924(a)(1)(D), and 924(a)(2). On March 8, 2018, the
Grand Jury returned a Superseding Indictment charging Baxter
with two counts of illegally transporting a firearm in violation
of 18 U.S.C. §§ 922(a)(5), 924(a)(1)(D), and 924(a)(2).
On March 26, 2018, Baxter moved to suppress the evidence
uncovered by the search of the packages. The Court held an
evidentiary hearing on Baxter’s motion to suppress on June 4,
2018.
II.

DISCUSSION

The Fourth Amendment protects citizens from “unreasonable
searches and seizures” of “their persons, houses, papers and
effects.” U.S. Const., amend. IV. The Fourth Amendment protects
citizens from governmental intrusions into areas in which
citizens have a “reasonable expectation of privacy.” See, e.g.,
Byrd v. United States, 138 S. Ct. 1518, 1526, 200 L. Ed. 2d 805
(2018). “A ‘search’ occurs when an expectation of privacy that
society is prepared to consider reasonable is infringed.” United
States v. Jacobsen, 466 U.S. 109, 113 (1984).

Appendix D

031a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 5 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 5

A. Fourth Amendment Standing
The United States asserts that the packages in this matter
were “sent from a Jason Price and addressed to Mekelya Meade.”
See ECF No. 155 at 2. The United States argues that--because the
packages do not “bear[] his name” and because, “by his not
guilty plea, [Baxter] denies an ownership interest” in the
packages--Baxter has no legitimate expectation of privacy in the
packages. See id.
“Standing to challenge a search requires that the
individual challenging the search have a reasonable expectation
of privacy in the property searched.” Rakas v. Illinois, 439
U.S. 128 (1978). “Fourth Amendment rights are personal rights,
which, like some other constitutional rights, may not be
vicariously asserted.” Id. at 133-34 (quoting Alderman v. United
States, 394 U.S. 165, 174 (1969)). “A person who is aggrieved by
an illegal search and seizure only through the introduction of
damaging evidence secured by a search of a third person’s
premises or property has not had any of his Fourth Amendment
rights infringed.” Id. at 134; see also United States v. Davis
393 Fed. App’x 895, 898 (3d Cir. 2010).
“Both senders and addressees of packages or other closed
containers can reasonably expect that the government will not
open them.” United States v. Villarreal, 963 F.2d 770, 774 (5th

Appendix D

032a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 6 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 6

Cir. 1992). The Third Circuit has recognized that “individuals
may assert a reasonable expectation of privacy in packages
addressed to them under fictitious names.” United States v.
Pettiway, 429 Fed. App’x 132, 136 n.5 (3d Cir. 2011) (quoting
Villarreal, 963 F.2d at 774).
Here, the United States acknowledges that Baxter is also
known as Jason Price. See Indictment, ECF No. 70 at 1, 3, 5
(charging “STEVEN BAXTER a/k/a JASON PRICE” with illegally
mailing firearms). The United States alleges that Baxter, using
his alias Jason Price, mailed the packages at issue in this
matter. Presumably, the packages are relevant because they are
Baxter’s. That is precisely why the United States seeks to use
the packages against Baxter in the United States’s case-inchief. Under these circumstances, the Court holds that Baxter
has standing to challenge the admissibility of the packages. As
Baxter has standing to challenge the warrantless searches of the
packages, the Court will next address the validity of the
warrantless searches that occurred here.
B. Warrantless Searches of Mail
“Warrantless searches are presumptively unreasonable.”
Horton v. California, 496 U.S. 128, 133 (1990); see also Katz v.
United States, 389 U.S. 347, 357 (1967) (“Searches conducted
without warrants have been held unlawful ‘notwithstanding facts

Appendix D

033a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 7 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 7

unquestionably showing probable cause.’” (quoting Agnello v.
United States, 269 U.S. 20, 33 (1925)). Moreover, it is
irrelevant whether a search impermissibly conducted without a
warrant ultimately uncovers evidence of a crime. See Jacobsen,
466 U.S. at 113 (“Such a warrantless search could not be
characterized as reasonable simply because, after the official
invasion of privacy occurred, contraband is discovered.”).
Article I, Section 8 of the U.S. Constitution grants
Congress the power “[t]o establish Post Offices and post Roads.”
U.S. Const., Art. I, § 8, cl. 7. This grant of power “embraces
the regulation of the entire postal system of the country,”
which “necessarily involves the right to determine what shall be
excluded” from the mails. Ex parte Jackson, 96 U.S. 727, 728
(1877).
Since as early as 1877, in Ex parte Jackson, 96 U.S. 727
(1877), the United States Supreme Court has recognized that this
power does not remove mail from the protection of the Fourth
Amendment. See id. In determining the reach of the Fourth
Amendment to mailed matter,
a distinction is to be made between different kinds
of mail matter,-between what is intended to be kept
free from inspection, such as letters, and sealed
packages subject to letter postage; and what is open
to inspection, such as newspapers, magazines,
pamphlets, and other printed matter, purposely left
in a condition to be examined. Letters and sealed
packages of this kind in the mail are as fully

Appendix D

034a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 8 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 8

guarded from examination and inspection, except as
to their outward form and weight, as if they were
retained by the parties forwarding them in their own
domiciles. The constitutional guaranty of the right
of the people to be secure in their papers against
unreasonable searches and seizures extends to their
papers, thus closed against inspection, wherever
they may be.
Id. at 733.
In light of that strong protection afforded to sealed mail
packages against searches, the Supreme Court made it clear that
such packages were accorded the same Constitutional protection
as items in a home. That is, only a warrant could justify the
search of a mail package.
Whilst in the mail, they can only be opened and
examined under like warrant, issued upon similar
oath or affirmation, particularly describing the
thing to be seized, as is required when papers are
subjected to search in one’s own household.
Id. (emphasis added).
Moreover, the Jackson Court clearly outlined the limits of
any other law that might purport to subjugate the Constitutional
protection afforded sealed packages against searches.
No law of Congress can place in the hands of
officials connected with the postal service any
authority to invade the secrecy of letters and such
sealed packages in the mail; and all regulations
adopted as to mail matter of this kind must be in
subordination to the great principle embodied in the
fourth amendment of the Constitution.
Id. (emphasis added).

Appendix D

035a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 9 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 9

The Supreme Court reaffirmed these principles in United
States v. Van Leeuwen, 397 U.S. 249 (1970) and again in United
States v. Jacobsen, 466 U.S. 109 (1984). In Van Leeuwen, customs
officials suspected that two packages contained gold coins that
had been illegally imported from Canada. 397 U.S. at 249-50. The
packages in question were mailed first-class. Id. at 250. Postal
regulations in effect at the time “describe[d] ‘first-class’
mail as ‘matter closed against postal inspection,’ which
follow[ed] the definition” in the relevant statute. Id. at 250
n.1. The packages were briefly detained while customs officials
obtained a warrant to search them. Id. at 250, 252. Only when
warrants were issued did customs officials inspect the contents
of the packages. Id. at 250. On appeal, the Supreme Court held
that the pre-search detention of the packages was permissible
under the Fourth Amendment. Id. at 253.
The Supreme Court explained that “[i]t has long been held
that first-class mail such as letters and sealed packages
subject to letter postage—as distinguished from newspapers,
magazines, pamphlets, and other printed matter—is free from
inspection by postal authorities, except in the manner provided
by the Fourth Amendment.” Id. at 251. Analogizing the seizure of
mail to a Terry frisk, the Supreme Court explained that “[t]he
only thing done [by the customs officials] on the basis of

Appendix D

036a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 10 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 10

suspicion was detention of the packages.” Id. at 252. This did
not occasion any “invasion of the right ‘to be secure’ in the
‘persons, houses, papers, and effects’ protected by the Fourth
Amendment against ‘unreasonable searches and seizures.’” Id.
(quoting U.S. Const., amend. IV). While in “theory” “detention
of mail could at some point become . . . unreasonable,” the
detention in Van Leeuwen was reasonable under the Fourth
Amendment. Id. Significantly, law enforcement did not search the
sealed package until they obtained a search warrant.
In Jacobsen, a package was damaged and torn by a forklift.
The package was in the care of a private freight carrier. 466
U.S. at 111. Employees of the freight carrier opened the package
and discovered a white powdery substance. Id. The employees
notified federal law enforcement officials, who tested the
substance, which was revealed to be cocaine. Id. On appeal, the
Supreme Court held that the search did not violate the Fourth
Amendment. Id. at 126.
The Fourth Amendment protects individuals’ right “to be
secure in their persons, houses, papers and effects, against
unreasonable searches and seizures.” See U.S. Const., amend. IV.
When the wrapped parcel involved in this case was
delivered to the private freight carrier, it was
unquestionably an “effect” within the meaning of the
Fourth Amendment. Letters and other sealed packages
are in the general class of effects in which the
public at large has a legitimate expectation of

Appendix D

037a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 11 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 11

privacy; warrantless searches of such effects are
presumptively unreasonable. Even when government
agents may lawfully seize such a package to prevent
loss or destruction of suspected contraband, the
Fourth Amendment requires that they obtain a warrant
before examining the contents of such a package. Such
a warrantless search could not be characterized as
reasonable simply because, after the official
invasion
of
privacy
occurred,
contraband
is
discovered.
Jacobsen, 466 U.S. at 114 (footnotes omitted).
Significantly, however, the Fourth Amendment only
“proscrib[es] government action; it is wholly inapplicable ‘to a
search or seizure, even an unreasonable one, effected by a
private individual not acting as an agent of the Government or
with the participation or knowledge of any governmental
official.’” Id. at 114 (quoting Walter v. United States, 447
U.S. 649, 662 (1980) (Blackmun, J., dissenting)). In Jacobsen,
“[t]he initial invasions of respondents’ package were occasioned
by private action,” and therefore did not violate the Fourth
Amendment. Id. at 115. The permissibility of the government’s
subsequent actions “must be tested by the degree to which [those
actions] exceeded the scope of the private search.” Id. In that
case, the Supreme Court held that the government’s actions did
not violate any expectation of privacy that had not already been
frustrated by the private freight carrier, and thus did not
violate the fourth amendment. Id. at 126.

Appendix D

038a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 12 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 12

As the cases cited above illustrate, not all packages
require a warrant prior to being searched. As the Supreme Court
in Ex parte Jackson instructed, “a distinction is to be made
between different kinds of mail matter,-between what is intended
to be kept free from inspection, such as . . . sealed packages,
. . . ; and what is open to inspection, such as . . . printed
matter, purposely left in a condition to be examined.” Ex parte
Jackson, 96 U.S. at 733.
To that end, Congress directed the Postal Service to
“maintain one or more classes of mail for the transmission of
letters sealed against inspection.” 39 U.S.C. § 404(c) (“Section
404”). Congress has further made clear that any mail designated
as “sealed against inspection” may only be opened “under
authority of a search warrant authorized by law, or by an
officer or employee of the Postal Service for the sole purpose
of determining an address at which the letter can be delivered,
or pursuant to the authorization of the addressee.” Id.
In accordance with Congress’s mandate, the Postal Service
regulations provide that “[s]ealed mail is mail that under
postal laws and regulations is included within a class of mail
maintained by the Postal Service for the transmission of letters
sealed against inspection.” 39 C.F.R. § 233.3(c)(3). “Unsealed
mail is mail that under postal laws or regulations is not

Appendix D

039a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 13 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 13

included within a class of mail maintained by the Postal Service
for the transmission of letters sealed against inspection.” 39
C.F.R. § 233.3(c)(4). “Sealed mail includes,” among other
classes of mail, “Priority Mail.” 39 C.F.R. § 233.3(c)(3).
Similarly, through 39 C.F.R. § 111.1, the Postal Service
incorporated into the regulations by reference “the Mailing
Standards of the United States Postal Service, Domestic Mail
Manual, a looseleaf document published and maintained by the
Postal Service.” 39 C.F.R. § 111.1. The Domestic Mail Manual
provides that “Priority Mail matter is closed against postal
inspection.” Domestic Mail Manual § 113.2.2.
Here, the packages were mailed from South Carolina to the
United States Virgin Islands via Priority Mail. Upon the arrival
of the packages in the Virgin Islands, CBP officers searched the
packages without a warrant. The government seems to have taken
this course because, among other things, the packages did not
bear some indication that they were first-class mail or a
letter.
Q. . . . [A]re you able to determine if this was
mailed as a first class mail?
A. It was mailed as a priority mail.
Q. What does that mean in terms of whether or not
it is a first class mail?
A. First class mail must always have a stamp on it
that states “first class mail” unless there is some
separate identify [sic] that clearly defines it as
first class.

Appendix D

040a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 14 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 14

Suppression Hr’g Tr., ECF No. 99 at 43:8-17. In the absence of a
stamp or some indication that the class of mail is first-class,
the government, since perhaps 2012, has subjected sealed
packages to warrantless searches.
THE COURT: Officer Lopez, when you say “checking the
mail,” you mean having -- what do you mean by that?
THE WITNESS: Checking the cargo, the boxes, the
cargo, because we’re not allowed to go to the letter.
We cannot touch the letter mail. So we check all of
the cargo coming into
the Virgin Islands.
Q. (By Mr. Sanchez:) Why can’t you get to the letter,
to the mail?
A. Those are the rules that we were explained, we
cannot touch the letter. Unless we get a search
warrant, we can’t touch that.
Id. at 33:13-25.
The government’s position not only seems to be contrary to
well-established Constitutional law, see, e.g., Jacobsen, 466
U.S. at 114 (recognizing “wrapped parcel” containing white
powdery substance as “unquestionably an ‘effect’ within the
meaning of the Fourth Amendment”), remarkably it is even
contrary to the regulations regarding sealed mail packages. See
Domestic Mail Manual § 113.2.2 (““Priority Mail matter is closed
against postal inspection.”). Because Priority Mail is the
equivalent of a “wrapped parcel” sealed against inspection, law
enforcement officers were required to obtain a warrant before
opening the packages. Accordingly, their failure to obtain a
warrant was unconstitutional. Indeed, such a warrantless search

Appendix D

041a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 15 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 15

could only be constitutionally permissible if an exception to
the warrant requirement applied to the searches undertaken here.
C. Exception to Warrant Requirement
“Searches conducted outside the judicial process, without
prior approval by a judge or magistrate, are per se unreasonable
under the Fourth Amendment subject only to a few
specifically established exceptions.” Katz, 389 U.S. at 357.
“Such exceptions are based on the Supreme Court’s determination
that a particular search is reasonable, that is, that the
government’s legitimate interests in the search outweigh the
individual’s legitimate expectation of privacy in the object of
the search.” United States v. Salmon, 944 F.2d 1106, 1120 (3d
Cir. 1991); see also United States v. Hyde, 37 F.3d 116, 118 (3d
Cir. 1994). Warrantless border searches are one such exception.
California Bankers Ass’n v. Shultz, 416 U.S. 21, 63 (1974)
(“[T]hose entering and leaving the country may be examined as to
their belongings and effects, all without violating the Fourth
Amendment.”); see also Hyde, 37 F.3d at 118.
In United States v. Ramsey, 431 U.S. 606 (1977), the United
States Supreme Court recognized that sealed envelopes
originating in another country and entering the United States
fell within the border exception. Indeed, in that case, the
Supreme Court counseled that

Appendix D

042a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 16 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 16

customs officials could search, without probable
cause and without a warrant, envelopes carried by an
entering traveler, whether in his luggage or on his
person . . . . Surely no different constitutional
standard should apply simply because the envelopes
were mailed, not carried. The critical fact is that
the envelopes cross the border and enter this
country, not that they are brought in by one mode of
transportation rather than another. It is their
entry into this country from without it that makes
a resulting search “reasonable.”
Id. at 620; cf. United States v. Hyde, 37 F.3d 116 (3d Cir.
1994).3
To the extent the sealed packages crossed an international
border; that is, in either direction between non-United States
territory and United States territory, arguably the packages may
not be an “effect” protected by the Fourth Amendment. The Court
will next address border issues implicated by the searches here,

In United States v. Hyde, 37 F.3d 116 (3d Cir. 1994), the defendants
were subjected to warrantless searches in the St. Thomas airport as they were
leaving the Virgin Islands for Florida. Id. at 117. The Third Circuit held
“that routine customs search of persons and their belongings without probable
cause as they leave the Virgin Islands for the continental United States are
not unreasonable under the Fourth Amendment.” Id. at 117.
As for the individual’s interest in privacy, the Third Circuit found
this was limited in the same manner as with the international border. Id.
“[B]order searches have been consistently conducted at the border between the
Virgin Islands and the mainland since the United States acquired the Virgin
Islands.” Id. While there might not be universal knowledge of this fact, the
Third Circuit “believe[d] that there [wa]s sufficient public knowledge of the
distinctive status of the Virgin Islands to alert such travelers to the
possibility of border inquiries not experienced at state lines.” Id.
“Balancing the intrusion on the individual’s Fourth Amendment interests
against the degree to which routine customs searches promote legitimate
governmental interests,” the Third Circuit held that the searches in that
case were not unreasonable under the Fourth Amendment. Id.
3

Appendix D

043a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 17 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 17

as well as other circumstances that may allow for warrantless
searches.
D. Presence of Circumstances That May Permit Warrantless
Searches
Here, CBP officers subjected packages mailed from South
Carolina to the Virgin Islands to warrantless searches. South
Carolina assuredly is not a foreign country, such that sealed
mail from that state would ordinarily be subject to warrantless
search. Thus, the Priority Mail packages in this case that
originated in South Carolina are sealed domestic mail. See
Domestic Mail Manual § 113.2.2. Second, they remain protected
from a warrantless search unless their native inviolate
character is transformed by some intrusive search by a nongovernment agent, e.g., Jacobsen 466 U.S. at 115, or they are
transferred to a foreign territory, see Ramsey, 431 U.S. at 620.
If neither of these circumstances occurred, the Priority Mail
packages here should be free from warrantless searches. If
neither circumstance occurred and a search is permissible,
arguably the Fourth Amendment does not apply in the United
States Virgin Islands. Alternatively, it is arguable that some
hybrid form of the Fourth Amendment exists in the Virgin
Islands, the legal vestiges of which are a version that (1) is
devoid of the normal Fourth Amendment Constitutional protections
highlighted by the Supreme Court in Ex parte Jackson; and (2)

Appendix D

044a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 18 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 18

lacks any reliable and predictable vigor. The Court addresses
each potential transformative circumstance in turn.
1. Warrantless Searches by a Private Actor
The record indicates that the searches here were undertaken
solely by government officials. Thus, the searches do not fall
into the category of searches conducted by private actors
(independent of government direction), like that in Jacobsen,
that escape Fourth Amendment scrutiny.
2. Transfer of Package To or From a Non-United States
Territory
The packages at issue here were mailed from the mainland to
the Virgin Islands. They never left United States territory.
Unless some other legally transformative event occurred, a
warrantless search of the Priority Mail packages here would be
unconstitutional. Indeed, if the sealed packages here were
destined for Puerto Rico, there is little dispute that the
packages would be protected from warrantless searches. United
States v. Colon-Solis, 508 F. Supp. 2d 186, 191 n.2 (D.P.R.
2007) (discussing “well-established principle that shipments to
and from Puerto Rico are not subject to inspection under the
border exception to the Fourth Amendment”). The United States
has indicated as much in its supplemental briefing on Baxter’s
motion to suppress. See ECF No. 155 at 1 (“The Court’s initial
inquiry posed two questions. The first question is whether

Appendix D

045a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 19 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 19

Customs and Border protection can search mail arriving in Puerto
Rico from the mainland United States without first obtaining a
warrant. The government’s answer is no.”); see also Krystal
Cadillac-Oldsmobile GMC Truck, Inc. v. Gen. Motors Corp., 337
F.3d 314, 319 (3d Cir. 2003) (“[A] plaintiff, who has obtained
relief from an adversary by asserting and offering proof to
support one position, may not be heard later in the same court
to contradict himself in an effort to establish against the same
adversary a second claim inconsistent with his earlier
contention.” (internal quotation marks omitted)). That position
is not surprising, as Puerto Rico is a territory of the United
States. A person or thing traveling from the mainland United
States to Puerto Rico leaves United States territory and arrives
in United States territory. Given that circumstance, it would
seem that, constitutionally, a warrantless search of the
packages here may be permissible if, unlike a package arriving
in Puerto Rico, arrival in the Virgin Islands was the legal
equivalent of arrival in a non-United States territory.
This Court recently addressed the domestic nature of the
United States Virgin Islands in the context of a tariff law. In
United States v. Ten Thousand Six Hundred & Seventy-Seven
Dollars ($10,677.00) in U.S. Currency, Representing 5,419 Puerto
Rican Lottery Tickets, No. CV 2016-12, 2018 WL 2745903, at *4

Appendix D

046a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 20 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 20

(D.V.I. June 7, 2018) (the “Puerto Rican Lottery Case”), this
Court was confronted with the question of whether the United
States Virgin Islands was a “foreign country” under 19 U.S.C. §
1305(a) (“Section 1305”), which provides that “[a]ll persons are
prohibited from importing into the United States from any
foreign country . . . any lottery ticket.” See 19 U.S.C. §
1305(a).
In the Puerto Rican Lottery case, the Court reasoned:
Section
1305(a)
forbids
an
individual
from
“importing [certain goods] into the United States
from any foreign country.” 19 U.S.C. § 1305(a)
(emphasis added). The text references two geographic
categories: the United States and foreign countries.
It does not necessarily follow that there are only
two dichotomous geographic categories for customs
purposes: the United States customs territory (which
excludes the Virgin Islands) and foreign countries
(of which the Virgin Islands would be regarded as
part). If that were the case, then the phrase “from
any foreign country,” would be entirely superfluous
as any good “import[ed] ... into the United States”
would necessarily be imported from a foreign
country. See id. (emphasis added).
Id. at *4. In addition to the plain language of the statute, the
Court also found that “[r]elevant caselaw pre-dating the passage
of 19 U.S.C. § 1305(a) also supports the conclusion that the
Virgin Islands is not a foreign country.” Id. at *6. The Court
explained:
The Supreme Court first addressed whether a United
States territory constituted a foreign country under
the tariff laws in De Lima v. Bidwell. 182 U.S. 1,
21 S. Ct. 743, 45 L.Ed. 1041 (1901). In that case,

Appendix D

047a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 21 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 21

the Supreme Court considered whether a tariff
statute that provided that certain duties “shall be
levied, collected, and paid upon all articles
imported from foreign countries” applied to articles
imported from Puerto Rico. Id. at 180-181. The
Supreme Court held that the statute did not apply.
It reasoned, in pertinent part, that:
Territory thus acquired can remain a
foreign country under the tariff laws only
upon one or two theories: Either that the word
‘foreign’ applies to such countries as were
foreign at the time the statute was enacted,
notwithstanding any subsequent change in their
condition, or that they remain foreign under
the tariff laws until Congress has formally
embraced them within the customs union of the
states.
The
first
theory
is
obviously
untenable ... [A] country ceases to be foreign
the instant it becomes domestic. So, too, if
Congress saw fit to cede one of its newly
acquired territories (even assuming that it
had the right to do so) to a foreign power,
there could be no doubt that from the day of
such cession and the delivery of possession
such territory would become a foreign country,
and be reinstated as such under the tariff
law. Certainly no act of Congress would be
necessary in such case to declare that the
laws of the United States had ceased to apply
to it.
The theory that a country remains foreign
with respect to the tariff laws until Congress
has acted by embracing it within the customs
union presupposes that a country may be
domestic for one purpose and foreign for
another. It may undoubtedly become necessary,
for the adequate administration of a domestic
territory, to pass a special act providing the
proper
machinery
and
officers,
as
the
President would have no authority, except
under the war power, to administer it himself;
but no act is necessary to make it domestic
territory if once it has been ceded to the
United States. We express no opinion as to
whether Congress is bound to appropriate the
money to pay for it. This has been much

Appendix D

048a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 22 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 22

discussed by writers upon constitutional law,
but it is not necessary to consider it in this
case, as Congress made prompt appropriation of
the money stipulated in the treaty. This
theory also presupposes that territory may be
held indefinitely by the United States; that
it may be treated in every particular, except
for tariff purposes, as domestic territory;
that laws may be enacted and enforced by
officers of the United States sent there for
that purpose; that insurrections may be
suppressed,
wars
carried
on,
revenues
collected, taxes imposed; in short, that
everything may be done which a government can
do within its own boundaries, and yet that the
territory may still remain a foreign country.
That this state of things may continue for
years, for a century even, but that until
Congress enacts otherwise, it still remains a
foreign country. To hold that this can be done
as matter of law we deem to be pure judicial
legislation. We find no warrant for it in the
Constitution or in the powers conferred upon
this court. It is true the nonaction of
Congress
may
occasion
a
temporary
inconvenience; but it does not follow that
courts of justice are authorized to remedy it
by inverting the ordinary meaning of words.
Id. at 197–98 (emphasis added). The Supreme Court
subsequently reaffirmed, several times, that a
United States territory is not a foreign country.
See, e.g., The Diamond Rings, 183 U.S. 176, 22 S.
Ct. 59, 46 L.Ed. 138 (1901) (reaching the same
conclusion with respect to the Philippine Islands);
Faber v. United States, 221 U.S. 649, 658, 31 S. Ct.
659, 659, 55 L.Ed. 897 (1911)(holding that a most
favored nation clause in a treaty with Cuba did not
require the United States to extend to Cuba a
preferential duty rate that had been granted to the
Philippine Islands).
Id.
While not directly on point, the reasoning in the Puerto
Rican Lottery Case provides some guidance here on the question

Appendix D

049a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 23 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 23

of whether the United States Virgin Islands is non-United States
territory for Fourth Amendment purposes, such that it should be
treated differently than Puerto Rico with respect to warrantless
searches of sealed packages travelling from the United States
mainland to a well-established United States territory.4 The
Court is aware of no precedent that would require treating the
United States Virgin Islands as a foreign country or non-United
States territory for the purposes of the Fourth Amendment.
3. Application of the Fourth Amendment in the Virgin Islands
While the Virgin Islands is “[o]bviously . . . not a
‘foreign country,’” it is not a state. Vento v. Dir. of Virgin
Islands Bureau of Internal Revenue, 715 F.3d 455, 466 (3d Cir.
2013). Rather, the Virgin Islands is “an unincorporated
territory of the United States.” Ballentine v. United States,
486 F.3d 806, 811 (3d Cir. 2007). The Third Circuit has opined
that “[a]n unincorporated territory is one that is not nearing

The Virgin Islands, like Puerto Rico, has been part of the United States for
more than a century. They each have local government, with local courts,
legislatures, and executives. See, e.g., Rodriquez v. 32nd Legislature of
Virgin Islands, 859 F.3d 199, 206 (3d Cir. 2017) (explaining that “the
[Revised Organic Act of 1954] divides the Virgin Islands government into
legislative, executive, and judicial branches and thereby ‘implicitly
incorporate[s] the principle of separation of powers into the law of the
territory’ (quoting Kendall v. Russell, 572 F.3d 126, 135 (3d Cir. 2009));
Buscaglia v. Dist. Court of San Juan, 145 F.2d 274, 283 (1st Cir. 1944) (“We
concede that the doctrine of separation of powers is implicit in the Organic
Act of Puerto Rico[, which divides the government of Puerto Rico into
legislative, executive, and judicial branches].”).
4

Appendix D

050a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 24 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 24

statehood and whose subjects do not enjoy full constitutional
guarantees. For example, Virgin Islands residents are not
permitted to vote in presidential elections, although they are
U.S. citizens. They are represented in Congress by a single nonvoting delegate.” Vooys, 901 F.3d at 177 n.10 (citations
omitted). The Fourth Amendment, however, is not among the
constitutional guarantees denied to Virgin Islanders. See 48
U.S.C. § 1561 (providing that “the first to ninth amendments
inclusive” “shall have the same force and effect there as in the
United States or in any State of the United States”).
Indeed, it is well-settled that “[t]he Fourth Amendment
applies in the United States Virgin Islands.” United States v.
Mathurin, 561 F.3d 170, 174 n.3 (3d Cir. 2009); see also
Boumediene v. Bush, 553 U.S. 723, 758 (2008) (explaining that,
“as early as . . . 1922, the [U.S. Supreme] Court took for
granted that even in unincorporated Territories the Government
of the United States was bound to provide to noncitizen
inhabitants ‘guaranties of certain fundamental personal rights
declared in the Constitution.’” (quoting Balzac v. Porto Rico,
258 U.S. 298, 312 (1922)); Soto v. United States, 273 F. 628,
633 (3d Cir. 1921) (explaining that after the United States
acquired the United States Virgin Islands, “the fundamental law
of the Constitution guaranteeing certain rights to all within

Appendix D

051a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 25 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 25

its protection,” namely the law securing “natural or personal
rights” that are “enforced . . . by prohibition against
interference,” applied of its own force).
4. Customs Zone Exclusion as a Basis for Hybrid Application
of Fourth Amendment to United States Territory
The Court will next consider whether, in spite of the
United States Virgin Islands’s status as a United States
Territory, there is nevertheless some type of border that would
justify warrantless searches on persons and things traveling
from the mainland United States to the United States Virgin
Islands.
To appreciate the underpinnings that should inform any
border or customs zone discussion involving the Virgin Islands,
a brief review of some Virgin Islands history is warranted.
On April 1, 1914, Christian the Tenth, King of Denmark, the
Vandals and the Goths, Duke of Slesvig, Holstein, Stormarn,
Ditmarsh, Lauenborg, and Oldenborg, sanctioned Danish Law No.
64-1914. Section 1 of that law, in pertinent part, provides:
On all goods which are imported in St. Thomas and
St. Jan, and which do not, according to § 2 below,
enter duty free, an import duty of 6% of the value
shall be imposed . . . .
Act No. 64-1914, concerning Custom House and Ships Dues in St.
Thomas and St. Jan, § 1 (Apr. 1, 1914), reprinted in 1 V.I.C.,
Historical Documents, Organic Act of 1936. In accord with Danish

Appendix D

052a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 26 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 26

Law No. 64-1914, an ordinance of the Colonial Council of St.
Thomas and St. Jan, approved on August 6, 1914, provided
guidance for the imposition and collection of import duties.
Colonial Council of St. Thomas and St. Jan Ordinance of August
6, 1914 (Aug. 6, 1914), reprinted in 1 V.I.C., Historical
Documents, Organic Act of 1936. Section 29 of the Ordinance
provided, in pertinent part, that
[a]ll amounts derived from confiscations and fines,
arising from this Ordinance, shall accrue to the
Colonial Treasury . . . .
Id. at § 29.
“When the United States purchased the Virgin Islands from
Denmark in 1917, laws were already in place which provided for
Customs duties to be levied upon goods coming into the Virgin
Islands, with the revenue going to the colonial treasury.”
Paradise Motors, Inc. v. Murphy, 892 F. Supp. 703, 704 (D.V.I.
1994) (quoting United States v. Chabot, 19 V.I. 28, 37, 531 F.
Supp. 1063, 1069 (D.V.I. 1982)). After purchasing the Virgin
Islands, Congress passed the Organic Act of 1917 (the “1917
Organic Act”). Section 4 of that act, codified at 48 U.S.C. §
1395, provides in relevant part that “the customs laws and
regulations” in the Virgin Islands in effect before the purchase

Appendix D

053a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 27 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 27

would “continue in force and effect.”5 Pub. L. No. 64-389, § 4,
39 Stat. 1132 (1917). In 1932, Congress amended the 1917 Organic
Act to provide: “The officials of the Customs and Postal
Services of the United Sates are hereby directed to assist the
appropriate officials of the municipality of Saint Croix, or of
the municipality of Saint Thomas and Saint John, in the
collection of these taxes.” Pub. L. No. 72-193, § 4, 47 Stat.
333 (1932).
In 1936, Congress passed the Organic Act of 1936 (the “1936
Organic Act”). Section 36 of that act, codified at 48 U.S.C. §
1406i, provides in relevant part that, “[u]ntil Congress shall
otherwise provide, all laws concerning import duties and customs
in the municipality of Saint Thomas and Saint John now in effect
shall be in force and effect in and for the Virgin Islands.”

5

The Danish customs laws extended by the Act of 1917 referred primarily
to the import duty established and enforced pursuant to two
Danish laws, both enacted in 1914. The first law imposed a 6%
“import duty” on all goods imported into St. Thomas and St.
John. Danish Law No. 64 of April 1, 1914, concerning Custom
House and Ships Dues in St. Thomas and St. Jan (“Danish Law
No. 64”), reprinted in V.I. Code Ann., Historical Documents,
69–74 (1967). The second law, Ordinance of August 6, 1914,
promulgated rules for the collection of the import duty
established by Danish Law No. 64. Ordinance of August 6, 1914,
reprinted in V.I. Code Ann., Historical Documents, 74–81 (1967)
(“Ordinance of 1914”).
As originally enacted, these laws did not apply to the
island of St. Croix; however in 1936 Congress made these Danish
customs laws applicable throughout the Virgin Islands. 48
U.S.C. § 1406i (1976).

Paradise Motors, Inc., 892 F. Supp. at 705.

Appendix D

054a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 28 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 28

Pub. L. No. 74-749, § 36, 49 Stat. 1816 (1936). Section 36 also
directed the Secretary of the Treasury to “designate the several
ports and sub-ports of entry in the Virgin Islands of the United
States and shall make such rules and regulations and appoint
such officers and employees as he may deem necessary for the
administration of the [local] customs laws in the Virgin Islands
of the United States.” Id.
In 1954, Congress passed the Revised Organic Act. The
Revised Organic Act did not speak to the Danish custom laws
addressed in Section 36 of the 1936 Organic Act and Section 4 of
the 1917 Organic Act. Section 8 of the Revised Organic Act,
codified at 48 U.S.C. 1574, provided, however, that the “laws
made applicable to the Virgin Islands by or pursuant to the
[1936 Revised Organic] Act . . . and all local laws and
ordinances in force in the Virgin Islands . . . on the date of
approval of this Act shall, to the extent they are not
inconsistent with this Act, continue in force and effect.” Pub.
L. No. 83-517, § 7(c), 68 Stat 501 (1954). As such, Section 36
of the 1936 Organic Act remains in effect. See, e.g., Polychrome
Int’l Corp. v. Krigger, 5 F.3d 1522, 1534 n. 29 (3d Cir. 1993).
Under Section 28 of the Revised Organic Act, the “proceeds of
customs duties, . . . less the cost of collecting such duties,”

Appendix D

055a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 29 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 29

were to “be covered into the treasury of the Virgin Islands.”6
Pub. L. No. 83-517, § 28(a), 68 Stat 501 (1954).
In 1977, Congress amended Section 8 of the Revised Organic
Act and added a subsection (f). See Pub. L. No. 95–134 (HR
6550), § 301(c), 91 Stat 1159 (1977). Subsection (f) provides:
(f) Customs duty; duty-free importation; effect on
other customs laws
(1) The Legislature of the Virgin Islands may
impose on the importation of any article into the
Virgin Islands for consumption therein a customs
duty. The rate of any customs duty imposed on any
article under this subsection may not exceed-(A) if an ad valorem rate, 6 per centum ad
valorem; or
(B) if a specific rate or a combination ad
valorem and specific rate, the equivalent or 6
per centum ad valorem.
(2) Nothing in this subsection shall prohibit the
Legislature of the Virgin Islands from permitting
the duty-free importation of any article.
(3) Nothing in this subsection shall be construed
as empowering the Legislature of the Virgin Islands
to repeal or amend any provision in law in effect
on the day before October 15, 1977, which pertains
to the customs valuation or customs classification
of articles imported into the Virgin Islands.
Id.; see also 48 U.S.C. § 1574(f).
Under this authority, the Government of the Virgin Islands
enacted 33 V.I.C. § 525 (“Section 525”). Section 525 provides:

In 1980, Congress passed 48 U.S.C. § 1642a, which similarly provides that
“the proceeds of customs duties collected in the Virgin Islands less the cost
of collecting all said duties shall . . . be covered into the Treasury of the
Virgin Islands.” 48 U.S.C. § 1642a; see also Pub. L. No. 96-304, Title I, §
100, 94 Stat. 907 (1980).
6

Appendix D

056a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 30 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 30

The amount of customs duty to be paid on any article
of foreign origin imported into the Virgin Islands
which article has been shipped from within the United
States Customs Zone shall be that amount which when
added to the duty paid to the United States on said
article equals six percent of the value of the
article when imported into the Virgin Islands. For
the purpose of the preceding sentence, the amount of
the duty paid in the United States shall be construed
to be the greater of the following:
(1) The amount of duty actually paid on said
articles to the United States as shown on a
receipt from the U.S. Customs Service or by other
documentation acceptable to the U.S. Customs
Service officials in the Virgin Islands.
(2) The amount of duty that would be payable on
said article to the United States based on the
rates of duty on such articles shown in the tariff
schedules of the United States, as amended (12
U.S.C. § 1202), and the value of such article
when imported into the United States.
In the case of (2) above, documentation acceptable
to the U.S. Customs Service officials in the Virgin
Islands showing that the item has been shipped from
within the United States Customs Zone shall be
required of the importer. Should the amount of duty
paid to the United States on an article as computed
under (1) or (2) above be six percent or greater of
the value of the article when imported into the
Virgin Islands, then such article shall enter the
Virgin Islands free of duty.
For the purposes of this section, an article is not
shipped from within the United States Customs Zone
if it is shipped from a duty-free warehouse located
in the United States, if it is transshipped through
the United States without incurring a customs duty
in the United States, or if it is shipped in any
other manner which avoids the payment of a customs
duty in the United States.
33 V.I.C. § 525. In addition, while the Virgin Islands repealed
all Danish laws when it adopted the Virgin Islands Code, it

Appendix D

057a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 31 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 31

exempted “the ‘Law concerning Custom House and Ship Dues in St.
Thomas and St. Jan’” from that repeal. See 1 V.I.C. § 6.
As discussed above, Section 36 of the 1936 Organic Act
directed the Secretary of the Treasury to “make such rules and
regulations and appoint such officers and employees as he may
deem necessary for the administration of the customs laws in the
Virgin Islands of the United States.” 48 U.S.C. § 1406i.
Pursuant to that direction, the Secretary of the Treasury
promulgated 19 C.F.R. § 7.2. That regulation, in relevant part,
provides:
The Secretary of the Treasury administers the
customs laws of the U.S. Virgin Islands through the
U.S. Customs and Border Protection. The importation
of goods into the U.S. Virgin Islands is governed by
Virgin Islands law; however, in situations where
there is no applicable Virgin Islands law or no U.S.
law specifically made applicable to the Virgin
Islands, U.S. laws and regulations shall be used as
a guide and be complied with as nearly as possible.
Tariff classification of, and rates of duty
applicable to, goods imported into the U.S. Virgin
Islands are established by the Virgin Islands
legislature.
19 C.F.R. § 7.2(c); see also Virgin Islands Port Auth. v. United
States, 136 Fed. Cl. 7, 8–9 (2018) (“As a part of the Treasury
Department, CBP’s authority to administer customs law in the
Virgin Islands derives from the 1936 Revised Organic Act which
designated the Secretary of Treasury as administrator of Virgin
Islands customs law.”); United States v. Wray, No. CR. 2002-53,

Appendix D

058a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 32 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 32

2002 WL 31628435, at *3 (D.V.I. June 17, 2002) (“[T]he executive
branch maintains jurisdiction over the administration of customs
laws within the Virgin Islands by virtue of the language of
section 36 of the 1936 Organic Act.”).
As authorized by Congress, the Government of the Virgin
Islands imposes duties on many items of foreign origin that may
be imported into the United States Virgin Islands. See 33 V.I.C.
§ 525 (authorizing collection of customs duty on “any article of
foreign origin imported into the Virgin Islands[,] which . . .
has been shipped from within the United States Customs Zone,” in
addition to duties collected in the United States). An
obligation to pay customs duties arises when certain items cross
from the mainland United States into the United States Virgin
Islands. Arguably then, some type of border--or an approximation
of one--exists between the United States Virgin Islands and the
rest of the United States with respect to items of foreign--that
is, non-United States--origin leaving the mainland and entering
the Virgin Islands. Significantly, however, while the
enforcement of Virgin Islands customs laws is assisted by
federal officials, the customs laws with respect to imported
goods are not federal but territorial laws. See Pollard, 326
F.3d at 401; Hyde, 37 F.3d at 121. While routine warrantless
border searches would aid in enforcing the custom laws of the

Appendix D

059a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 33 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 33

Virgin Islands, the interest of the United States in the
enforcement of territorial law is certainly no greater than the
interest of the United States in enforcing its own Constitution.7
Further, in Hyde, the Third Circuit found significant that
Congress, through 19 U.S.C. § 1467, had “specifically authorized
customs inspections when travelers enter the United States from
the Virgin Islands and other United States possessions in the
same manner as if the traveler had come from a foreign country.”

With respect to the individual’s interest, it is unclear how long the
United States has been conducting routine warrantless searches of incoming
mail. U.S. customs regulations provide that “all mail arriving from outside
the U.S. Virgin Islands which is to be delivered within the U.S. Virgin
Islands, is subject to Customs examination.” 19 C.F.R. § 145.2. This broad
asserted authority seems at odds with another regulation, which clarifies
that “[f]irst class mail originating in the Customs territory of the United
States and arriving in the U.S. Virgin Islands, which is to be delivered
within the U.S. Virgin Islands, shall not be opened unless: (1) A search
warrant authorizing that action has been obtained from an appropriate judge
or United States magistrate, or (2) The sender or the addressee has been
given written authorization for the opening.” 19 C.F.R. § 145.3; see also 19
C.F.R. § Pt. 145, Policy (“Customs officers and employees shall not open
first class mail arriving in the U.S. Virgin Islands for delivery there, if
it originated in the Customs territory of the United States, unless a search
warrant or written authorization of the sender or addressee is obtained.”).
Further, to the extent these searches have been consistently conducted,
there is less cause to find “sufficient public knowledge of the distinctive
status of the Virgin Islands to alert” those sending mail to the Virgin
Islands that their packages may be searched without a warrant. See id.
Individuals departing the Virgin Islands for the United States pass through a
customs checkpoint. This is an obvious signal to travelers that leaving the
Virgin Islands and entering a state is somewhat different than traveling from
one state to another. Individuals entering the Virgin Islands from a state
pass through no such obstacles that would alert them of the fact that leaving
a state and entering the Virgin Islands is materially different than
traveling between the states.
In sum, the Court finds that the government’s interest in conducting
the type of search at issue here is less compelling than the government’s
interest in conducting the searches at issue in Hyde. In addition, the
intrusion on privacy here is more significant than the intrusion presented in
Hyde. Balancing these interests, the Court holds that the warrantless
searches of the sealed mail packages in this matter were not reasonable.
7

Appendix D

060a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 34 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 34

See Hyde, 37 F.3d at 121. The Court is aware of no statutory
authority authorizing similar inspections of persons or items
entering the United States Virgin Islands from the United States
mainland.
Moreover, there is no Supreme Court authority that supports
the proposition that recognition, or imposition, of a tax,
impost, or duty on sealed items traveling from a State into a
United States territory creates a border between the United
States territory and the State, at which border there is no
Fourth Amendment protection that attaches to the individual
whose sealed package travels from the State to the United States
Territory.
To be sure, there is appellate authority recognizing the
exclusion of the Virgin Islands from the United States customs
zone. See Hyde, 37 F.3d at 122.

The Third Circuit has not

extended this recognition to items traveling from the mainland
to the United States Virgin Islands. Indeed, the government has
directed the Court to no such authority; and the Court is aware
of none.
Further, no authority has acknowledged that the primary
purpose of the customs zone exclusion was to create a vehicle
for revenue enhancement in the then newly acquired Virgin
Islands and its developing economy. Yet, that is precisely what

Appendix D

061a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 35 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 35

the relevant legislative history indicates. See Anti-Smuggling
Act: Hearings on H.R. 5496 Before the Comm. on Ways and Means,
74th Cong. 61 (1935) (“MR. HILL. Why are the Virgin Islands
excepted [from the tariff act’s definition of the ‘United
States’]? MR. MURPHY. The duties in the Virgin Islands are
collected under the old Danish law. At the time the Virgin
Islands came over to us that law was in effect. The collection
of duties, of course, comes under this Government, but the old
law remained in effect, and the duties go to the islands
themselves.”); H. Rep. No. 1505, at 6 (1917) (explaining that
provision in 1917 Organic Act leaving Danish customs laws in
effect was intended to raise “import duties to support the
government of the islands”). Indeed, in 1914, the import duty
was conceived as a tool to augment and support the then-Danish
“Colonial Treasury.” Thereafter, when Congress continued
collection of the import duty, through the mechanism of a
customs zone exclusion, it was a device to support the local
Virgin Islands economy. It is

beyond peradventure that Congress

did not conceive of the customs zone exclusion as a device to
weaken “fundamental personal rights guaranteed in the
Constitution,” Boumediene, 553 U.S. at 758 (internal quotation
marks omitted), such as those enshrined in the Fourth Amendment.
The Court is aware of no organic Congressional decision or

Appendix D

062a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 36 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 36

enactment about the Virgin Islands suggesting that the customs
zone exclusion was to be a vehicle for a diminished view of
Constitutional protections afforded sealed items sent from the
mainland to the Virgin Islands, and the government has cited
none.8
Finally, the rationale for a border, and the border search
exception, is to keep out of the United States, or protect
against, those things which are outside of its border. See
United States v. Montoya de Hernandez, 473 U.S. 531, 537 (1985)
(“Since the founding of our Republic, Congress has granted the
Executive plenary authority to conduct routine searches and
seizures at the border, without probable cause or a warrant, in
order to regulate the collection of duties and to prevent the
introduction of contraband into this country.”). Recognizing
that purpose, the Supreme Court has counseled:
The border-search exception is grounded in the
recognized right of the sovereign to control, subject
to
substantive
limitations
imposed
by
the

8

Any argument that the Virgin Islands’s status as a territory warrants a
different conclusion is similarly unavailing. Indeed, the Third Circuit, in
another context, has recognized the vigor of a Constitutional mandate
implicit in legislation affecting the territory. See JDS Realty Corp. v.
Gov’t of Virgin Islands, 824 F.2d 256, 259 (3d Cir. 1987), judgment vacated
on other grounds, 484 U.S. 999 (1988) (“That the Virgin Islands is an
unincorporated territory is of no consequence in terms of the constitution’s
grant of affirmative power to Congress to regulate interstate commerce. . . .
We conclude that the powers granted to Congress by the commerce clause are
implicit in the territorial clause.”).

Appendix D

063a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 37 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 37

Constitution, who and what may enter the country. .
. .The critical fact is that the envelopes cross the
border and enter this country. . . . It is their
entry into this country from without it that makes a
resulting search “reasonable.”
Ramsey, 431 U.S. at 620 (emphasis added).
It is axiomatic that those things that originate in, and
stay within, the territory of the United States remain free from
border searches.9 A central point highlighted by the Supreme
Court in its border search jurisprudence is that items subject
to a border search enter the country “from without it.” See id.
(emphasis added); see also Almeida-Sanchez v. United States, 413
U.S. 266, 272 (1973) (“‘Travellers may be so stopped in crossing
an international boundary because of national self protection
reasonably requiring one entering the country to identify
himself as entitled to come in, and his belongings as effects
which may be lawfully brought in.’” (quoting Carroll v. United
States, 267 U.S. 132, 154 (1925)). The sealed packages that

Thus, in the context of border searches, the following syllogism should hold
true.
(a) Sealed packages originating in a State mailed to a United
States destination are packages that travel and remain
within the United States.
(b) Packages that travel and remain within the United States
enjoy the protection of the Fourth Amendment from
warrantless searches.
(c) Therefore, sealed packages originating in a State that are
mailed to a United States destination enjoy the protection
of the Fourth Amendment from warrantless searches.
The argument advanced by the government here challenges that logic.
Indeed, the government’s position causes the syllogism to implode.
9

Appendix D

064a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 38 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 38

arrived in the United States Virgin Islands did not come from
“without” the country.
Accordingly, the Court will grant Baxter’s motion to
suppress.
III. CONCLUSION
The Fourth Amendment of the United States Constitution has
protected individuals from unreasonable warrantless searches
since its existence. That protection has been recognized by the
United States Supreme Court as extending to sealed mail among
and between United States residents within United States
territory. The circumstances giving rise to this case-warrantless searches of sealed mail packages sent from the
United States mainland to the United States Virgin Islands-raise several questions.
First, does the Fourth Amendment apply in the United States
Virgin Islands? For almost a century, this Court has addressed
challenges to alleged violations of the Fourth Amendment by law
enforcement.10 Significantly, the recognition of the Fourth

See, e.g., United States v. Wright, 493 Fed. App’x 265, 271 (3d Cir. 2012)
(“Having settled that the warrants were deficient, we turn to the issue of
whether their deficiencies, when coupled with the law enforcement conduct
here, require suppression of the evidence found during the search.”); United
States v. Varlack Ventures, 149 F.3d 212, 216 (3d Cir. 1998) (“[W]e have no
need to decide whether Fredericks enjoyed a reasonable expectation of privacy
in the public areas of his vessel since, even if he did, the Coast Guard
officers fulfilled the requirements for conducting a warrantless search of
his vessel.”); United States v. Williams, 612 F.2d 735, 739 (3d Cir. 1979)
10

Appendix D

065a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 39 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 39

Amendment’s protection in the United States Virgin Islands has
been unchallenged.
Second, to the extent that the Fourth Amendment applies in
the United States Virgin Islands, does it exist in some hybrid
form such that its protections fade, to some degree, merely
because a sealed package originating in the United States
mainland arrives in the United States Virgin Islands? The
position taken by law enforcement here suggests that a
Congressional act or administrative procedure that excludes the
United States Virgin Islands from the United States Customs Zone
does so in a way that denatures the Fourth Amendment such that
its full protection, which exists for citizens that send sealed
packages from the mainland to Puerto Rico,11 fails to protect
those citizens who send sealed packages from the mainland to the
United States Virgin Islands.

(“Exigent circumstances therefore existed, and we see no reason to secondguess their tactical decision to deny the suspect the advantages that delay
to procure a warrant would have presented.”); Gov’t of V.I. v. Rijos, 285 F.
Supp. 126, 132 (D.V.I. 1968) (“Since the issuance of the search warrant in
this case was based upon sufficient probable cause, the subsequent search
will not be deemed invalid on this basis.”); People v. Fisher, 2 V.I. 395,
399 (Police Ct. 1953) (“That no warrant shall issue but upon probable cause
supported by oath or affirmation and particularly describing as the place to
be searched and the persons or things to be seized.”).
11 Puerto Rico is within the United States Customs Zone. See 19 U.S.C. §
1401(h) (“The term ‘United States’ includes all Territories and possessions
of the United States except the Virgin Islands, American Samoa, Wake Island,
Midway Islands, Kingman Reef, Johnston Island, and the island of Guam.”).

Appendix D

066a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 40 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 40

The Court is not persuaded that the Constitution supports
such a position. See, e.g., Marbury v. Madison, 5 U.S. 137, 180
(1803) (“[A] law repugnant to the constitution is void; . . .
courts, as well as other departments, are bound by that
instrument.” (emphasis omitted)). Indeed, the Fourth Amendment
is pregnant with protection against warrantless searches of
citizens and their effects, including sealed packages, houses,
papers and effects.12 Neither the existence nor vigor of those
protections is compromised because the destination of a sealed
package from the United States mainland happens to be the United
States Virgin Islands.
To the extent that the government engages in warrantless
searches because it is tactical to do so, as it has indicated in
this case and a related case, see Suppression Hr’g Tr., ECF No.
99 at 116:4-14 (“THE COURT: . . . Why not get a warrant to just
search [packages] and avoid all of this? MS. VLASOVA: Your
Honor, as law enforcement strategy and tactic . . . .”);

The Supreme Court has recognized as much, instructing: “Letters and other
sealed packages are in the general class of effects in which the public at
large has a legitimate expectation of privacy.” Jacobsen, 466 U.S. at 114.
The packages here are no different.
12

Appendix D

067a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 41 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 41

Suppression Hr’g Tr., Crim. No. 1:17-11, ECF No. 85 at 4:23-5:1
(“Q: Was there a specific target that was causing you to perform
this search?

A: No, ma’am. Just doing everything at random.”),

it elevates expediency over the Constitution in a way it
admittedly would never do in a state or Puerto Rico, and it does
so unlawfully. Where that happens it is worth recalling the
Supreme Court’s admonition:
The needs of law enforcement stand in constant
tension with the Constitution’s protections of the
individual against certain exercises of official
power. It is precisely the predictability of these
pressures that counsels a resolute loyalty to
constitutional safeguards.
Almeida-Sanchez, 413 U.S. at 273. Finally, the sine qua non for
a border search is that the item enter the country from without.
That threshold condition never occurred. In sum, where, as here,
law enforcement conducts warrantless searches of sealed packages
sent from the United States mainland to the United States Virgin
Islands, law enforcement runs afoul of the Constitution.13

In light of clear Supreme Court authority, it would seem to behoove law
enforcement to obtain a search warrant before searching any sealed mail
letter, package, or “wrapped parcel” travelling in any direction between the
Virgin Islands and the mainland. Given that such “effects” are in the custody
and control of law enforcement, and there is no danger of loss or destruction
of the effect, it would seem constitutionally prudent, and a minor task, to
obtain a search warrant.
13

Appendix D

068a

Case: 3:17-cr-00024-CVG-RM Document #: 161 Filed: 11/26/18 Page 42 of 42
United States v. Baxter, et al.
Criminal No. 2017-24
Order
Page 42

The premises considered, it is hereby
ORDERED that the Court’s order at the June 4, 2018,
suppression hearing denying in part the motion to suppress
docketed at ECF Number 79 is VACATED; it is further
ORDERED that the motion to suppress docketed at ECF Number
79 is GRANTED; and it is further
ORDERED that the physical evidence recovered from the
warrantless searches conducted on March 31, 2017, and April 3,
2017, is SUPPRESSED.

S\
Curtis V. Gómez
District Judge

Appendix D

069a

